                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

  Case Number: A08020005                                                          Page 1 of 1


          We received an allegation that an NSF PI had been sanctioned for plagiarism by an
          editor of a journal because one of his papers contained plagiarism, and that we
          should review the PI's NSF proposals for plagiarism. During our Inquiry, we
          reviewed one of the PI's proposals and found unattributed copied text. In response
          to our letter, the PI said another of his proposals may contain similar text, but did
          not identify which one. We found one proposal with the same copied text and
          another with additional copied text. Those proposals were funded, and the Program
          Officer said she would not have funded one of them had the copied text been known
          not to be original to the PI. We referred the matter to the Department of Justice,
          but it declined prosecution in lieu of administrative action.

          During this time, the subject moved to another university. That university learned
          of the plagiarism in the journal paper and referred the matter to the grantee
          institution for investigation. At nearly the same time, we made our referral to the
          grantee for the investigation of the copying in the PI's proposals. The grantee
          concluded the subject's copying in the manuscript was plagiarism and made a
          finding of research misconduct. We concluded the subject's copying in the proposals
          represented plagiarism and recommended NSF make a finding of research
          misconduct and take additional actions. NSF concurred and took several actions in
          response. Accordingly, this case is closed with no further action taken. Our report,
          NSF's decision, and this Closeout Memorandum constitute the documents for the
          case closeout.




NSF OJG Fonn 2 ( 11/02)
       National Science Foundation
        Office of Inspector General




                  Confidential
             Report of Investigation
            Case Number A08020005

                         14 March 2012
          This Confidential Report of Investigation is provided to you
                             FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which may
result in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report
may be further disclosed within NSF only to individuals who must have knowledge of its
contents to facilitate NSF's assessment and resolution of this matter. This report may
be disclosed outside NSF only under the Freedom of Information and Privacy Acts,
5 U.S.C. §§ 552 & 552a. Please take appropriate precautions handling this confidential
report of investigation.
                                                                                         ,.

CONFIDENTIAL                                                              CONFIDENTIAL



                                  Executive Summary
Allegation:         Plagiarism.
OIG Inquiry:        We found two NSF proposals contained text copied from
multiple sources without proper citation; the proposals were funded. We received
notification from the Subject's former university that it had received a similar
plagiarism allegation and agreed an Investigation was warranted.
University Investigation:         The University concluded the Subject committed
research misconduct. As the Subject is no longer there, it could take no action other
than to include its report in the Subject's file.
OIG Investigation:        The University focused on documents other than the NSF
proposals. Thus, we conducted our own Investigation and used the University's
evidence to support a pattern of plagiarism.
       The Act: The Subject plagiarized approximately 157 unique lines of text from
       7 source documents into 2 NSF proposals.
       Intent: We concluded the Subject acted intentionally.
       Significant Departure: The Subject's plagiarism represents a significant
       departure from accepted practices.
       Standard of Proof: A preponderance of the evidence standard supported our
       conclusion that the Subject committed research misconduct.
       Pattern: The focus of the University's Investigation was the Subject's
       plagiarism of text from papers into a manuscript submitted for publication.
       We conclude the plagiarized text in the paper and other NSF proposals
       constitutes evidence of a pattern of plagiarism.
OIG Recommendations:          Send a letter of reprimand to the Subject informing
him that NSF has made a finding of research misconduct. We recommend that NSF
require the Subject to:
   •   Certify for 2 years that any documents he submits to NSF are either entirely
       his own writing or are properly cited.
   •   Obtain assurances from his university's Research Integrity Officer, or
       appropriate official, for 2 years that any documents he submits to NSF are
       either entirely his own writing or are properly cited.
   •   Attend a course in research ethics, with content including proper citation
       practices, within 1 year.
   •   Prohibit the Subject from servmg as a rev1ewer, advisor, or consultant on
       NSF proposals for 2 years.




                                          1
CONFIDENTIAL
                                                                                           CONFIDENTIAL



                                           OIG's Inquiry
       Our office received a suggestion that we review the Subject's! NSF proposals
for plagiarism because the Subject had recently been censured for plagiarism by a
professional society 2 for submitting a manuscript3 (the manuscript) for publication
that contained text plagiarized from other documents. We reviewed one of the
Subject's then-recent proposals (proposal A) 4 and found approximately 67 lines of
text copied from four sources. Subsequently, we sent the Subject our standard
Inquiry letter, 5 and he responded6 that he did not believe the copied text constituted
plagiarism because either: (1) he had differentiated the text; (2) there were
references to the sources; or (3) the text was common know ledge not requiring a
citation. He also acknowledged that another of his NSF proposals had similar
uncited text, but he did not identify which proposal it was. Consequently, we
reviewed several of the Subject's other NSF proposals and identified another
proposal (proposal B)7 that contained significant text copied from one of the same
sources. Proposal B contained approximately 122 lines of text copied from 4
sources. Because of some overlap, the total copied text in the 2 proposals is
approximately 157 unique lines of copied text from 7 sources.s Both proposal A and
proposal B had been funded. 9


                                  University's Investigation
      We were notified by the University that it had received a similar allegation of
plagiarism from the Subject's current university (CU). 10 CU learned of the finding
of plagiarism from the professional society that censored the Subject for the


    1   Dr.              was a faculty member at the University of. . (the University) at the




                           prop     was su
                            This proposal is Tab 4.
    s Proposal A 1s      1, and proposal B is Tab 4. Since there is overlap of sources, the sources for
both are Tab 5. The proposals are highlighted by color and numbered to identify the source.
    9 Because the proposals were funded and based on several other factors, we referred the case to
the appropriate United States Attorney's Office. After a considerable delay, the Office decided not to
accept the case.
    10 During this time, the Subject was a faculty member at                          University. We
understand from the University that he is no longer cuJLjJHJ.Y                       cooperated with
the University's Investigation by corresponding via email.


                                                   2
                                                                                              CONFIDENTIAL
CONFIDENTIAL



manuscript and, since the manuscript was authored while the Subject was at the
University, CU notified the University of the allegation and asked the University to
evaluate it.11 CU also informed the University that the Subject had submitted
several proposals to NSF, which the University should consider reviewing.
Likewise, in our referral, 12 we asked the University to evaluate proposals A and B.
       The University conducted an investigation, 13 and its full investigative
committee (FIC) focused primarily on the manuscript, although it reviewed three of
the Subject's NSF proposals (proposals C-E) for evidence of a pattern. 14 However,
the FIC did not address the plagiarism in proposals A and B as we requested. The
FIC concluded the manuscript contained significant text in the body of the
document copied from other sources that were not cited. The Subject acknowledged
he should have cited the text, but said he was in a rush to prepare the manuscript.
He also pointed out that he had included a reference in the bibliography, but the
FIC determined there is no way for a reader to know the true author of the text if
the source is not cited in the body (only listed in the bibliography) and the text
distinguished in some manner. The FIC concluded the Subject's numerous minor
changes to the plagiarized text showed he took the time to integrate the plagiarized
text with his own and, thus, demonstrated that he intentionally plagiarized.
      Regarding the three NSF proposals it examined as part of a pattern, the FIC
concluded the copying in proposal C consisted of minor duplicative fragments that
did not rise to the level of plagiarism. It concluded the copying found in proposal D
was primarily self-plagiarism with only a small amount (approximately 6 lines)
copied from another source. It determined there was substantial copying in
proposal E (approximately 60 lines 15 from 2 sources).
       The University provided the Subject with the FIC's report. He responded 16
that he was very regretful that some text was not rephrased or appropriately
attributed, but disagreed that his plagiarism was intentionaL He said he has since
studied current standards and understands them now, so his previous plagiarism
was due to carelessness and ignorance. He notes he cooperated with the University

    11A brief chronology: The Subject submitted the manuscript to the professional society in . .
After the editorial investigation, the Subject was found to have inappropria~eused another's text
without credit, which violated the society's standards. Accordingly, in M a y - it prohibited the




..
Subject from publishing in any of its journals for 2 years. It apparently did not inform the Subject of
the finding and prohibition, and he continued to publish in those journals. In . . the society
realized its error and informed the Subject of its finding and moved the ban from 30 Sep      I -
                                                                                               30 Sep

    12   Tab 7.
    13   Tab 8 contains the adjudicator's decision (p.1), the FIC report (pp. 2-20), and the Subject's
                              as Exhibit #1 (p~
                        (proposal C, i n v i t e d ) ; - - (proposal D, awarded); and
(prop
    15 This line count is OIG's and is based on indented text, so is approximately 16% higher than it
would be for normally formatted text. We measured the indentation and divided that by the normal
text width to calculate the 16% ..
    I6 Tab 7, Exhibit #1 to the FIC report; pp. 21-23.




                                                      3
•


    CONFIDENTIAL
                                                                                              CONFIDENTIAL



    investigation. His response did not address NSF proposals A and B (except to say
    he thought he could use his previous text in them), but since the FIC report did not
    focus on them, his lack of response is not surprising.
           The University's adjudicator 17 accepted the FIC's findings and noted that
    since the Subject was no longer at the University, the only action taken was to place
    a copy of the report in the Subject's file.


                                           OIG's Assessment
            We agree with the University about its evaluation of the evidence and its
    conclusions. As noted above, the University focused primarily on the plagiarism in
    the manuscript, which was written without NSF support. Thus, we cannot consider
    this plagiarism as the primary act and, accordingly, we use the FIC's findings about
    it, and proposals C-E, as evidence of a pattern. We rely on our own assessment of
    proposals A and B, which showed that, similar to the Subject's copying in the
    manuscript, the Subject copied significant sections of text into proposals A and B
    without distinguishing the text and without citation to the source near the copied
    text.1s


          NSF's Research Misconduct Regulation states that a finding of misconduct
    requires: (1) there be a significant departure from accepted practices of the relevant
    research community; (2) the research misconduct be committed intentionally, or
    knowingly, or recklessly; and (3) the allegation be proven by a preponderance of the
    evidence.l9
                                                   The Act
           The Subject copied approximately 157 unique lines of text from 7 sources into
    2 proposals. The NSF Grant Proposal Guide is clear: "NSF expects strict adherence
    to the rules of proper scholarship and attribution. The responsibility for proper
    attribution and citation rests with authors of a proposal; all parts of the proposal
    should be prepared with equal care for this concern. ''20 Consequently, by failing to
    appropriately distinguish verbatim copied text from his own original text, the
    Subject presented the work of others as his own and, thus, failed to give appropriate
    credit to the actual authors.



        17                  , Interim Vice Provost for Research stated in the cover letter that the Provost
    has re              accepted the FIC findings .
        18 Also similar to the FIC's observation, we found substantial reuse of the Subject's own text from

    his other publications, but since NSF's research misconduct policy does not prohibit this we did not
    include any of that text in our line counts or analysis. Likewise, we did not use any of the FIC's
    identified self-plagiarism in our assessment of evidence of a pattern.
        19 45 C.F .R. §689.2(c) .
        zo NSF Grant Proposal Guide, Chapter 1, Section D.3.


                                                       4
                                                                                           CONFIDENTIAL
CONFIDENTIAL



      The table below shows the total number of plagiarized lines of text in the
proposals submitted to NSF. Because of some textual overlap, we consider 157 of
the 189 total lines to be unique.
                           Pronosal             Lines            Sources
                                A                 67                  4
                                B                122                  4
                                c                NIA
                                D                 5*                  1
                                E                52*                  2
[Proposals C-E are the proposals the FIC examined for pattern. The asterisk
indicates line counts on indented lines that have been converted to a full-margin
count.]
                                                Intent
       We concur with the FIC's assessment that the Subject did not just hastily
copy and paste from various sources into his manuscript, and we observe his
proposals exhibit the same characteristics. There are numerous instances where
the Subject made minor changes to integrate the copied text into his own,
particularly the inclusion of references that create the appearance of appropriate
citation. As he indicated to OIG, and reiterated in his response to the University,
the Subject said his actions were merely careless ignorance in not rephrasing the
wording. However, as the FIC noted, the extensiveness of his copying would require
more than simple rewording: the text should have been distinguished and
appropriately cited. Additionally, the Subject did not cite several of the sources so
the reader would assume the plagiarized text was his own. We conclude the Subject
copied intentionally.
                                      Significant Departure
       Using the preponderance of evidence standard, we conclude the Subject
intentionally copied unattributed text into proposals A and B without appropriately
distinguishing the text from his own work. In doing so, the Subject significantly
departed from the accepted practices of his research community and NSF. Indeed,
this case began based on the Subject's censure by his community for engaging in
plagiarism. A major scientific publisher in the Subject's field states, "Plagiarism in
any form is unacceptable and is considered a serious breach of professional
conduct." 2 1 Accordingly, we conclude that the Subject intentionally plagiarized and,
hence, committed research misconduct.




    2 1 See the "A Plagiarism FAQ" on IEEE's website:
http ://www.ieee. org/publications sta nda rds/publication s/rights/plagiarism FAQ.html.


                                                   5
CONFIDENTIAL                                                            CONFIDENTIAL



                             OIG's Recommended Disposition
      In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; degree of intent; whether it was an isolated event or part of a
pattern; its impact on the research record; and other relevant circumstances. 22
                                             Seriousness
       As we noted above, we concluded the preponderance of evidence standard
supports the conclusion that the Subject acted intentionally when he plagiarized
material into his proposals. Plagiarism violates research integrity and is a
significant departure from accepted practices in the research community. We
conclude the amount of plagiarized material is sufficiently serious to warrant a
finding of research misconduct.
                                           Degree o{Intent
       As we noted above, we concluded the Subject acted intentionally, which is a
culpable level of intent. We noted the Subject has submitted papers to well-known
professional journals published by the professional society. 2 3 The professional
society has a clear policy concerning plagiarism, providing the subject ample
opportunity to understand appropriate conduct. We conclude his actions were
distinctly intentional. .
                                              Pattern
      Because the FIC did not analyze proposals A and B, but focused primarily on
the manuscript, over which we have no jurisdiction, we use the University's
evidence of plagiarism to support a pattern of plagiarism. The FIC analyzed three
NSF proposals (C-E) and found evidence, primarily in proposal E, to support
evidence of a pattern of copying. We concur the Subject's copying in the manuscript
and proposal E , as well as the original two proposals A and B, demonstrate a
pattern of plagiarism.
                                 Impact on the Research Record
       The effect on the research record as a result of the Subject's actions was
moderate. Proposals A and B, which had the largest amounts of copied text, were
awarded, so both are available to the public through a Freedom of Information Act
request. Proposal E , which also contains a significant amount of copied text, was
declined.


                                      Subject's Response

         The Subject did not respond to our draft report.


   22   45 C.F .R. §689.3(b).
   23   The journals are primarily IEEE.


                                                  6
CONFIDENTIAL                                                                  CONFIDENTIAL




                                             Recommendations
       Based on the evidence, we recommend NSF take the following actions as a
final disposition in this case:
        (1) Send the Subject a letter of reprimand informing him that NSF has made
            a finding of research misconduct against him;2 4
        (2) Require the Subject to certify completion of a comprehensive responsible
               conduct of research (RCR) training program and provide documentation of
               the program's content within 1 year of NSF's finding . The instruction
               should be an interactive format (e.g., an instructor-led course, workshop,
               etc.) and specifically include a treatment ofplagiarism; 25
        (3) Require the Subject to certify that proposals he submits to NSF, for 2
            years, are either entirely his own writing or are properly cited; 26
        (4) Require the Subject to obtain assurances from his university's Research
            Integrity Officer, or appropriate official, for 2 years that any documents
            he submits to NSF are either entirely his own writing or are properly
            cited; 27
        (5) Prohibit the Subject from serving as a reviewer, advisor, or consultant on
            an NSF proposal for 2 years. 28
The Subject's certifications, assurances, and proof of a RCR program should be sent
to the Assistant Inspector General for Investigations (AlGI) for retention in OIG's
confidential file on this matter.




   24  This   is   a Group I action (45 C.F .R. § 689.3(a)(l)(i)).
   25  This   is   similar to a Group I action (45 C.F.R. § 689.3(a)(l)).
   26 This    is   similar to a Group I action (45 C.F.R. § 689.3(a)(l)).
   2 7 This   is   a Group I action (45 C.F.R. § 689.3(a)(l)(iii)).
   28 This    is   a Group III action (45 C.F.R. § 689.3(a)(3)(ii)).


                                                         7
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON , VIRGINIA 22230




                                      JUL 1 6 2012

    OFFICE OF THE
   DEPUTY DIRECTOR



CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear Dr.   IIIII
       In 2006-07, you served as a Principal Investigator ("PI") on two proposals submitted for
funding to the National Science Foundation ("NSF") entitled,

                                                                                                    "
As documented in the attached Investigative Report prepared by NSF's Office oflnspector
General ("OIG"), these proposals contained.plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained approximately 157 unique lines of text copied from seven
source documents . By submitting proposals to NSF that copied the ideas or words of another
without adequate attribution, as described in the OIG Investigative Report, you misrepresented
someone else' s work as your own. Your conduct unquestionably constitutes plagiarism. I
therefore conclude that your actions meet the defmition of "research misconduct" set forth in
NSF's regulations.
                                                                                              Page 2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed intentionally and constituted a significant departure
from accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1 ).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
intentionally. I have also considered the fact that your misconduct was part of a pattern of
plagiarism, and that it had a moderate impact on the research record. In addition, I have
considered other relevant circumstances. 45 CFR § 689 .3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until July 1, 2014, you must provide certifications to the OIG that any proposal or
           report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

       (2) Until July 1, 2014, you must obtain, and provide to the OIG, assurances from a
           responsible official of your employer that any proposal or report you submit to NSF as
           a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

       (3) By July 1, 2013, you must complete a comprehensive responsible conduct of research
           training course, and provide documentation of the program's content to the OIG. The
           instruction should be in an interactive format (e .g., an instructor-led course) and
           should specifically include a discussion on plagiarism and citation practices; and

       (4) Until July 1, 2014, you are prohibited from serving as a reviewer, advisor, or
           consultant for NSF.
                                                                                            Page 3
       The certifications, assurances, and training documentation should be submitted in writing
to NSF's OIG, Associate InspeCtor General for Investigations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.


Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become fmal.

       For your information, we are                   of the applicable regulations. If you have
any questions about the foregoing, please                   Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                     Cora B. Marrett
                                                     Deputy Director




Enclosures
   Investigative Report
- 45 C.F.R. Part 689
